App.1a

FILED, Clerk of the Supreme Court, 13 Nov 2020,
084636
SUPREME COURT OF NEW JERSEY C-220
September Term 2020
084636
State of New Jersey,
Plaintiff-Respondent
v.
Andrew Stoveken,
Defendant-Petitioner
-----------------------------State of New Jersey,
Plaintiff
v.
George Beecher,
Defendant

A petition for certification of the judgment in A1753/1985-18 having been submitted to this Court,
and the Court having considered the same;
It is ORDERED that the petition for certification is
denied
WITNESS , the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 9th day of November, 2020.

CLERK OF THE SUPREME COURT

APPENDIX B
SUPERIOR COURT OF NEW JERSEY

App.2a
APPELLATE DIVISION
DOCKET NOS. A-1753-18T1, A-1985-18T1
APPROVED FOR PUBLICATION JUNE 12, 2020
APPELLATE DIVISION
State of New Jersey,
Plaintiff-Respondent
v.
Andrew Stoveken,
Defendant-Appellant
-----------------------------State of New Jersey,
Plaintiff-Respondent
v.
George Beecher,
Defendant-Appellant
-------------------------------Argued telephonically April 21, 2020 –
Decided June 12, 2020
Before Judges Fisher, Accurso and Gilson.
On appeal from the Superior Court of New Jersey,
Law Division, Middlesex County, Indictment Nos. 1608-0130 and 16-08-0129.
The opinion of the court was delivered by
GILSON, J.A.D.
In these appeals, we address a question of first
impression: is a grand jury subpoena sufficient to
access prescription drug information maintained in
New Jersey's Prescription Monitoring Program
(PMP). We hold that a properly issued grand jury
subpoena is sufficient to obtain information
concerning an investigation into a prescriber. We also
hold that the grand jury subpoenas issued in these
matters were valid.

App.3a
Defendants George Beecher and Andrew Stoveken
were involved, along with others, in a conspiracy to
distribute oxycodone, an opioid pain medication that
is classified as a controlled dangerous substance
(CDS). During an investigation of the conspiracy, the
State issued subpoenas to the administrator of the
PMP. Defendants moved to suppress the evidence
obtained as a result of those subpoenas, but the trial
court denied that motion. Thereafter, both
defendants pled guilty to second-degree conspiracy to
distribute oxycodone, N.J.S.A. 2C:5-2, N.J.S.A. 2C:355(a)(1), and N.J.S.A. 2C:35-5(b)(4); and second-degree
distribution of oxycodone, N.J.S.A. 2C:35-5(a)(1),
N.J.S.A. 2C:35-5(b)(4), and N.J.S.A. 2C:2-6. Beecher
was sentenced to ten years in prison and Stoveken
was sentenced to seven years in prison.
In separate appeals, defendants challenge the
validity of the subpoenas. They argue that the
subpoenas were not actually issued by a grand jury;
rather, they were issued by prosecutors and detectives
in the Attorney General's Office. They also argue that
even if the subpoenas were issued by a grand jury,
New Jersey's Constitution requires that a court must
find probable cause before information maintained in
the PMP can be accessed. We consolidate the appeals
for purposes of this opinion, reject both these
arguments, and affirm.
Defendant Stoveken also argues that his
application to the special probation Drug Court
program was improperly denied. We reject that
argument and affirm Stoveken's sentence.
I.
We derive the facts from the record on the motion
to suppress and admissions defendants made when
they pled guilty. In May 2015, a confidential source
informed the State about a pharmaceutical narcotics
distribution network operating in the South Plainfield
area. The source told the State that Beecher, who

App.4a
was a medical doctor, was providing John Burnham
with prescriptions for oxycodone. The Division of
Criminal Justice launched an investigation into the
network. Ultimately, the State came to believe that
Beecher, Stoveken, and Burnham were part of a
network that included approximately twenty-five
individuals.
Beecher was a medical doctor specializing in
otolaryngology. Stoveken was an audiologist who
shared offices with Beecher. Beecher would write
prescriptions for oxycodone for individuals whom he
never met based on driver's license information given
to him by Stoveken. Beecher would then give the
prescriptions to Stoveken, who in turn would give
them to Burnham. Burnham oversaw a network of
individuals who filled the prescriptions and sold the
oxycodone.
Beecher was paid for each prescription he wrote.
When he pled guilty, Beecher admitted that he
fraudulently prescribed approximately 38,000 doses of
oxycodone during the conspiracy. In connection with
his plea to a second-degree crime, Beecher also
admitted that the aggregate amount of oxycodone he
prescribed exceeded one ounce.
When Stoveken pled guilty, he acknowledged that
he acted as the middleman between Burnham and
Beecher with the understanding that Burnham would
oversee the fulfillment of the oxycodone prescriptions
and the sale of the drugs. Stoveken was paid between
$250 and $500 per month for his role and he also
relayed money from Burnham to Beecher.
As part of its investigation, the State sought
records from the PMP. The PMP was established by
statute in 2007 as an electronic database "for
monitoring controlled dangerous substances that are
dispensed in or into [New Jersey] by a pharmacist in
an outpatient setting." N.J.S.A. 45:1-45(a).
Pharmacies are required to submit, "by electronic

App.5a
means," information about each prescription for CDS,
which includes, among other things: the name and
address of the patient receiving the medication; the
prescriber; the date the prescription was issued; the
name, strength, and quantity of the CDS dispensed;
and the source of payment for the CDS. N.J.S.A.
45:1-45(b). The PMP is maintained by the Division of
Consumer Affairs (DCA), which is part of the
Department of Law and Public Safety. N.J.S.A. 45:145(a).
Between May 2015 and March 2016, the State
issued sixteen subpoenas to the administrator of the
PMP. The initial subpoenas sought information about
prescriptions written by Beecher. The additional
subpoenas sought information concerning
prescriptions written by Beecher, as well as
prescriptions for various individual patients. Each
subpoena stated that the information was to be
provided to a State grand jury on an identified date.
Each subpoena was also accompanied by a
certification from a detective of the Division of
Criminal Justice and a cover letter. The certifications
stated that the information was sought "pursuant to a
subpoena properly issued under the authority of a
properly convened grand jury." The cover letters
stated that the information should be emailed to the
detectives.
The State acknowledges that a grand jury was not
necessarily sitting on the dates the subpoenas were
issued. It is undisputed, however, that when the
information from the PMP was due to be returned, a
grand jury was in session.
In response to the subpoenas, the acting
administrator of the PMP delivered to the detectives
the requested records, together with a certification
from the custodian of the records. The State then
used the PMP records to develop its investigation. In
that regard, the State used information from the PMP

App.6a
records to obtain communication data warrants and
search warrants. The State also interviewed
witnesses using the PMP information.
In August 2016, the information the State obtained
during its investigation was presented to a grand
jury. The grand jury then returned two indictments:
one against Beecher, and another against Stoveken,
Burnham, and five other alleged co-conspirators.
Ultimately, Burnham and the five other co-defendants
pled guilty. As part of his plea agreement, Burnham
agreed to cooperate with the State and testify against
Beecher and Stoveken.
Beecher was charged with four crimes: seconddegree conspiracy to distribute oxycodone; seconddegree distribution of oxycodone; third-degree
distribution of alprazolam (Xanax), N.J.S.A. 2C:355(a)(1) and N.J.S.A. 2C:35-5(b)(13); and first-degree
strict liability for the drug-induced death of Jason
Stoveken, N.J.S.A. 2C:35-9(a). Jason was the son of
defendant Stoveken, who was charged with two
crimes: second-degree conspiracy to distribute
oxycodone, and second-degree distribution of
oxycodone.
Stoveken, joined by Beecher, moved to suppress
the evidence obtained from the PMP, as well as
evidence the State obtained by using the PMP
information. The trial court heard oral arguments on
May 12, 2017, and on May 22, 2017, it issued a
written opinion and order denying the motion.
The trial court focused its decision on two
arguments made by defendants: (1) whether the PMP
records should be accessible only on a showing of
probable cause; and (2) whether the subpoenas issued
by the State were proper grand jury subpoenas. In
addressing the first issue, the trial court reasoned
that the PMP statute allowed law enforcement
personnel to access PMP records pursuant to a grand
jury subpoena. N.J.S.A. 45:1-46(i)(8). The trial court

App.7a
also held that such grand jury subpoenas need not be
based on a showing of probable cause and instead
could be based on a showing of relevancy. In
connection with those rulings, the trial court also
found that defendants had presented no evidence that
the State had abused its access to the PMP records.
Concerning the subpoenas themselves, the trial
court held that the subpoenas were validly issued.
Relying on our decision in State v. Hilltop Private
Nursing Home, Inc., the trial court found that the
subpoenas were valid because they were made
returnable to the grand jury on specific days when the
grand jury was sitting. 177 N.J. Super. 377 (App.
Div. 1981). The trial court also found that the
administrator of the PMP had the opportunity to
appear before the grand jury. Further, the trial court
reasoned that the prosecutor or detectives could
accept the subpoenaed records for the grand jury.
Finally, relying on State v. McAllister, the trial court
held that the State was not required to provide notice
to defendants when it served the grand jury
subpoenas on the PMP administrator. 184 N.J. 17
(2005).
Following the denial of their motion to suppress,
Beecher and Stoveken pled guilty. As noted earlier,
both defendants pled guilty to second-degree
conspiracy to distribute oxycodone and second-degree
distribution of oxycodone. In the plea agreement with
Beecher, the State agreed to dismiss all other charges
and recommend that Beecher be sentenced to ten
years in prison. The charges dismissed against
Beecher included the charge of strict liability for the
drug-induced death of Jason Stoveken. In pleading
guilty, Beecher acknowledged that he had
fraudulently prescribed oxycodone and alprazolam to
Jason Stoveken and that Jason had died of an
overdose caused by "acute combined toxicity due to
oxycodone and alprazolam."

App.8a
In the plea agreement with Stoveken, the State
recommended that he be sentenced to seven years in
prison. Stoveken applied for admission into Drug
Court, contending that he was an alcoholic. Although
Stoveken was found to be eligible due to his severe
alcoholism, the trial judge determined that Stoveken
did not commit the offenses while under the influence
of alcohol and that he was therefore not eligible for
admission to the Drug Court program.
In accordance with their plea agreements,
Stoveken was sentenced to seven years in prison and
Beecher was sentenced to ten years in prison. The
trial court granted both defendants' applications to
stay their sentences pending their appeals and
granted defendants bail pending appeal.
II.
On appeal, defendants present two arguments
concerning the subpoenas and the denial of the
motion to suppress. First, they argue that the
subpoenas were improper "office subpoenas" because
the grand jury was not convened when the subpoenas
were issued, and the materials were produced to
detectives rather than the grand jury. Second, they
argue that New Jersey's Constitution requires a court
order based on a showing of probable cause to access
PMP information.
Beecher articulates his arguments as follows:
THE TRIAL COURT ERRED IN DENYING
[BEECHER'S] MOTION TO SUPPRESS
BECAUSE THE STATE UNLAWFULLY
UTILIZED "OFFICE SUBPOENAS" TO
OBTAIN PMP RECORDS CONTRARY TO
RELEVANT CASE LAW, THE
REQUIREMENTS OF N.J.S.A. 45:1-45 ET
SEQ., AND THE NEW JERSEY
CONSTITUTION.

App.9a
Stoveken articulates his arguments as follows:
I.

The trial court erred in denying [Stoveken's]
Motion to Suppress the subpoenas served
upon the Prescription Monitoring Program
("PMP")
A. A court order, as contemplated by the PMP
statute, is constitutionally necessary to
protect reasonable expectations of privacy.
B. Even if a grand jury subpoena is
constitutionally sufficient, the PMP statute
requires a [c]ourt [o]rder under the present
circumstances, because the PMP records
were provided to a law enforcement officer,
not a grand jury.

In addition, Stoveken contends that the trial court
erred in denying his application to enter the Drug
Court program and he makes the following
arguments:
II.

The trial court erred in denying Defendant’s
entry into the Drug Court program.
A.

Defendant’s voluntary Drug Court
application was wrongly rejected.

B.

The sentencing court erred by not
reconsidering Defendant’s Drug Court
eligibility under the mandatory track.

We hold that the subpoenas were valid grand jury
subpoenas. We also hold that law enforcement
personnel can obtain information from the PMP with
a valid grand jury subpoena issued on a showing of
relevancy. Finally, we affirm the denial of Stoveken's
application to the special probation Drug Court
program.
A. The Subpoenas to the PMP
The PMP statute states: "[P]rescription

App.10a
monitoring information submitted to the [DCA] shall
be confidential and not be subject to public
disclosure." N.J.S.A. 45:1-46(b). Accordingly, access to
information in the PMP is limited. The DCA itself
must review the information to (1) protect against
"misuse, abuse, or diversion of a [CDS]" and (2)
identify any violation of law or regulations. N.J.S.A.
45:1-46(c)(1) to (2). The PMP statute also permits
access to prescribers, pharmacies, and appropriate
medical and dental personnel generally related to
treatment of patients. N.J.S.A. 45:1-46(h). In
addition, the statute authorizes access to certain
persons, including both "a State, federal, or municipal
law enforcement officer who is acting pursuant to a
court order and certifies that the officer is engaged in
a bona fide specific investigation of a designated
practitioner, pharmacist, or patient" and "a properly
convened grand jury pursuant to a subpoena properly
issued for the records." N.J.S.A. 45:1-46(i)(6), (8). As
a condition for obtaining prescription monitoring
information, such persons must "certify the reasons
for seeking to obtain that information." N.J.S.A. 45:146(j).
The State acknowledges that it relied on the grand
jury subpoena provision of the PMP statute to access
the information concerning Beecher and relatedly
Stoveken. N.J.S.A. 45:1-46(i)(8). In other words, the
State did not obtain a court order and is not relying
on that provision of the statute. N.J.S.A. 45:1-46(i)(6).
The first question, therefore, is whether the
subpoenas issued were valid grand jury subpoenas.
The trial court did not conduct an evidentiary
hearing. Instead, the facts relevant to the issuance of
the subpoenas were presented as undisputed. We
review a trial court's conclusions of law in a nonevidentiary hearing de novo. State v. Hinton, 216
N.J. 211, 228 (2013); State v. Jackson, 460 N.J. Super.
258, 271 (App. Div. 2019). Moreover, when applying
law to undisputed facts, our review is plenary.

App.11a

Spangenberg v. Kolakowski, 442 N.J. Super. 529, 535
(App. Div. 2015) (quoting Reese v. Weis, 430 N.J.
Super. 552, 568 (App. Div. 2013)).
1. The Validity of the Subpoenas
"New Jersey courts have consistently affirmed the
expansive investigative powers of grand juries."
McAllister, 184 N.J. at 34. A grand jury subpoena is
valid if the State establishes "(1) the existence of a
grand jury investigation and (2) the nature and
subject matter of the investigation." Ibid. (quoting, as
the "prevailing standard," In re Grand Jury Subpoena
Duces Tecum, 167 N.J. Super. 471, 472 (App. Div.
1979)). A grand jury does not have to initiate the
subpoena process or authorize the issuance of the
subpoena. Id. at 34-35 (citing Hilltop, 177 N.J. Super.
at 389). Accordingly, a prosecutor can issue
subpoenas in the name of the grand jury, which does
not have to be sitting on the day the subpoenas are
issued. Jackson, 460 N.J. Super. at 270.
In summary, there are three criteria required for a
valid grand jury subpoena: (1) the existence of a
grand jury investigation; (2) the identification of the
nature and subject matter of the investigation; and (3)
the subpoenaed materials must be returnable on a
day when a grand jury is sitting and the subpoenaed
individual must have an opportunity to appear before
the grand jury. Ibid.; McAllister, 184 N.J. at 34-35.
It is also well-established that a grand jury
subpoena can be issued on a showing of relevancy for
the information, and probable cause need not be
established. McAllister, 184 N.J. at 34-35. Moreover,
the State can establish relevancy on a prosecutor's
representations and such representations do not have
to be set forth in a certification or affidavit. Id. at 34
(citing In re Grand Jury Subpoena Duces Tecum, 167
N.J. Super. at 472).
When the Legislature enacted the PMP statute in

App.12a
2007, the law concerning the validity of grand jury
subpoenas was well-established. We presume that
the Legislature was aware of that jurisprudence and,
therefore, we construe N.J.S.A. 45:1-46(i)(8)
accordingly. See Atl. Ambulance Corp. v. Cullum, 451
N.J. Super. 247, 255 (App. Div. 2017) (quoting Macedo
v. Dello Russo, 178 N.J. 340, 345-46 (2004)) (holding
that the Legislature is "presumed to be aware" of
judicial case law and the judiciary's interpretations of
its enactments).
All sixteen of the subpoenas issued by the State
met these criteria and were valid grand jury
subpoenas. Each subpoena was issued in the name of
a grand jury, and the subpoenas, together with the
accompanying certifications, established the existence
of a grand jury investigation. Each subpoena also
established the nature and subject matter of the
investigation by identifying Beecher and individuals
to whom he was prescribing medication. Finally, each
subpoena identified a specific date, time, and location
"to give evidence before the State grand jury" and the
PMP administrator had the opportunity to appear
before the State grand jury. That the evidence was
turned over to detectives, as opposed to the grand jury
itself, does not invalidate the subpoenas. It is also
undisputed that the materials collected from the PMP
were ultimately presented to a grand jury.
2. The Constitutionality of the Grand Jury
Subpoenas
Defendants argue that even if the grand jury
subpoenas were valid, New Jersey's Constitution
requires that the PMP information can be accessed
only on a showing of probable cause. Defendants also
contend that probable cause must be found by a court.
We disagree.
The Fourth Amendment of the United States
Constitution and Article I, Paragraph 7 of the New
Jersey Constitution are almost identical and

App.13a
guarantee the right of people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures by the
government. U.S. Const. Amend. IV; N.J. Const. art.
I, ¶ 7. The Fourth Amendment of the federal
Constitution generally does not protect information
that has been turned over to a third party. See
United States v. Miller, 425 U.S. 435, 442 (1976). In
contrast, New Jersey gives greater protection to its
residents under its Constitution. Individuals in New
Jersey do not lose their right to privacy simply
because they have given information to a third party.
See State v. Earls, 214 N.J. 564, 568 (2013);
McAllister, 184 N.J. at 25-27; see also State v. Shaw,
237 N.J. 588, 616 (2019) (citing State v. Alston, 88
N.J. 211, 226 (1981)) ("The New Jersey Constitution
provides greater protections from warrantless
searches and seizures than the Fourth Amendment of
the Constitution of the United States.").
Nevertheless, even when New Jersey recognizes
that its citizens have a reasonable expectation of
privacy in information, the standard for accessing
that information varies in light of the intrusion on the
privacy interests. See Earls, 214 N.J. at 569;
McAllister, 184 N.J. at 33; see also State v. Lunsford,
226 N.J. 129, 131-32 (2016). In other words, although
a citizen may have a reasonable expectation of
privacy, under certain circumstances the State can
intrude on that privacy in order, among other things,
to investigate criminal activity.
Accordingly, the question becomes whether the
intrusion should require a showing of probable cause
or relevancy. McAllister, 184 N.J. at 33; see also
Lunsford, 226 N.J. at 131. For example, in Lunsford,
the Court decided that an individual's privacy interest
in telephone billing records was protected by a
relevancy standard. Lunsford, 226 N.J. at 154; see
also State v. Reid, 194 N.J. 386, 389 (2008) (holding
that a privacy interest in information provided to

App.14a
internet service providers was adequately protected
by grand jury procedures); McAllister, 184 N.J. at 19
(same as to bank records). By contrast, in Earls, the
Court determined that to access cell-phone location
information, a warrant based on probable cause was
required. 214 N.J. at 569.
In applying these constitutional standards to the
PMP statute, we hold that the relevancy standard
applies when the government is seeking information
about a prescriber. Beecher was a prescribing doctor.
Stoveken was neither the prescriber nor the patient
receiving the medicine. Consequently, neither
defendant had a strong privacy interest in the patient
information and their reasonable expectations of
privacy concerning the information in the PMP was
limited. See Lunsford, 226 N.J. at 131; McAllister,
184 N.J. at 33; see also State v. Evers, 175 N.J. 355,
368-69 (2003) (citing Smith v. Maryland, 442 U.S.
735, 740 (1979)) (recognizing that "[t]o invoke the
protections of the Fourth Amendment and its New
Jersey counterpart, Article I, Paragraph 7, [a]
defendant must show that a reasonable or legitimate
expectation of privacy was trammeled by government
authorities.").
We do not reach the issue of what the appropriate
standard is if the State seeks information in an
investigation of a patient. We also do not determine
whether a court order under N.J.S.A. 45:1-46(i)(6)
could be issued on a showing of relevancy versus
probable cause. As noted earlier, the State is not
relying on that provision and, therefore, those issues
are not before us. To the extent that the trial court
reached those issues, we construe the court's
reasoning to be dicta and we take no position on
whether it was correct.
In summary, the subpoenas the State issued to the
administrator of the PMP were valid grand jury
subpoenas and those subpoenas did not violate either

App.15a
Beecher's or Stoveken's reasonable expectation of
privacy under our State or federal Constitutions.
B. Stoveken's Application to Drug Court
[this section of opinion omitted from Appendix as
irrelevant to Petition for Certiorari]
…
Affirmed.

App.16a
BY ORDER OF THE COURT
SUPERIOR COURT OF NEW JERSEY
COUNTY OF MIDDLESEX
LAW DIVISION
--------------------State of New Jersey,
Plaintiff
v.
George Beecher
Ind. 16-08-129-S
Andrew Stoveken, et al.
Ind. 16-08-130-S,
Defendants
------------------------FILED MAY 22, 2017
ORDER
THIS MATTER having been brought before the
Court by Steven D. Altman, Esq., appearing on behalf
of Defendant, Andrew Stoveken, Indictment No. 1608-129-S; and joined by Steven C. Lember, Esq.,
appearing on behalf of Co-Defendant John Burnham;
and joined by Jarred S. Freeman, Esq., appearing on
behalf of Co-Defendant Jamar Mayers; and joined by
Luis A. Negron, Esq., appearing on behalf of CoDefendant Donn Rush; and joined by Charlene
Cathcart, Esq., appearing on behalf of Co-Defendant
George Sara; and Defendant George Beecher,
Indictment No. 16-08-130-S having joined by filing a
supplemental brief by and through his attorney
Robert L. Galantucci, Esq.; and Deputy Attorney
General Michael W. King, Esq., appearing on behalf of
the State of New Jersey; and the Court having

App.17a
reviewed all papers submitted and having heard oral
argument on May 12, 2017; and for good cause shown;
IT IS ON THIS 22ND DAY OF MAY, 2017,
ORDERED that the Defendant's Motion to
Suppress Evidence is hereby DENIED for the reasons
set forth in the attached Opinion.

App.18a
BY ORDER OF THE COURT
SUPERIOR COURT OF NEW JERSEY
COUNTY OF MIDDLESEX
LAW DIVISION
--------------------State of New Jersey,
Plaintiff
v.
George Beecher
Ind. 16-08-129-S,
Andrew Stoveken, et al.
Ind. 16-08-130-S,
Defendants
-------------------------

This memorandum addresses Defendant
Andrew Stoveken' s Motion to Suppress, which CoDefendants John Burnham, Jamar Mayers, Donn
Rush, and George Sara joined, and which
Defendant George Beecher, Indictment No. 16-08130-S, joined by filing a supplemental brief.
Statement of Facts
In May 2015, the State initiated an
investigation into whether Defendant Dr. George
Beecher was a supplier of oxycodone pills to a
narcotics distribution organization. The State
alleges that the network of individuals associated
with Beecher numbered approximately twenty­
five people and was overseen by Defendant John

App.19a

Burnham. The State alleges that Defendant
Andrew Stoveken acted as a middleman between
Beecher and Burnham.
To investigate the alleged organization, the
State subpoenaed prescription monitoring
information held by the Division of Consumer
Affairs in the Department of Law and Public
Safety pursuant to N.J.S.A. 45:1-45, et al.
Between May 18, 2015 and March 14, 2016,
detectives from the NJ Division of Criminal
Justice served sixteen subpoenas duces tecum
on the NJPMP Administrator in the Division of
Consumer Affairs. They served four subpoenas
by physical mail and the other twelve by e-mail.
Each subpoena was accompanied by a cover
letter captioned " Request for NJPMP records"
and a " Certification of Investigator" signed by the
detective who delivered the subpoena. In response
to each request, the acting PMP Administrator
delivered responsive records to the requesting
detective along with a "Certification of the
Custodian of Records." The State used the PMP
records to develop the investigation, take witness
statements, and secure Communication Data
Warrants and search warrants.
On August 16, 2016, a State Grand Jury
issued an indictment charging John Burnham,
Andrew Stoveken, Jared Burnham, George Sara,
Jamar Mayers, Donn Rush, and Marina
Burnham with second-degree Conspiracy, in

violation of N.J.S.A. 2C:5-2, and second-degree
Distribution of Controlled Dangerous Substances,

in violation of N.J.S.A. 2C:35-5. The State Grand
Jury also issued an indictment charging George
Beecher with second-degree Conspiracy, in

App.20a

violation

of

N.J.S.A.
2C:5-2,
second-degree
Distribution of CDS, in violation of N.J.S.A. 2C:355, third­degree Distribution of CDS, in violation of
N.J.S.A. 2C:35-5, and first-degree Strict Liability for

Drug Induced Death, in violation of N.J.S.A.
2C:35-9.
On February 28, 2017, Defendant Stoveken
filed a Motion to Suppress. Stoveken's Co­
Defendants noticed their intent to join. On March
15, 2017, Beecher joined the motion and filed a
supplemental brief. On May 12, 2017, the
Honorable Benjamin S. Bucca, Jr. entertained
oral argument.
Analysis

I.

The PMP Statute

The Defendants argue that the State must
obtain a search warrant issued pursuant to a
probable cause finding in order to access
prescription monitoring information ("PMP
records"). They assert that a lower threshold
showing does not protect an individual's privacy
interest in PMP records. They conclude that the
PMP statute is internally inconsistent because it
allows access by either a court order issued upon a
probable cause showing or a grand jury subpoena
issued upon a relevancy showing.
The State responds that the statute is
consistent even though it grants access to PMP
records by either court order or grand jury
subpoena. The State reasons that the Legislature
used "court order" as a distinct term and not as an
equivalent of "search warrant," the latter of which
would require a probable cause showing. The State
concludes that the provisions permitting access by

App.21a

court order or by grand jury subpoena are
consistent with each other because they both
require a relevancy showing to access PMP
records.
The PMP statute permits both "a [...] law
enforcement officer acting pursuant to a court
order" and "a properly convened jury pursuant to a
subpoena properly is sued" to access PMP records.
However , the statute does not set out the standard
that either must satisfy to access those records .
This treatment differs from the Legislature's
treatment of the Wiretapping and Electronic
Surveillance Control Act, N.J.S.A. 2A:156A-1, et
The Act explicitly provides that telephone billing
records may be released "only if the law
enforcement agency offers specific and articulable
facts showing information [... ] is relevant and
material to an ongoing criminal investigation."
N.J.S.A. 2A:156A-29e.
The Defendants
are incorrect that
investigative entities may access PMP records
only upon a showing of probable cause. To read
"court order" as the equivalent of "search warrant"
would render the statute inconsistent. This is not
called for because the Legislature previously
distinguished the term "court order" from "search
warrant" and explicitly paired it with a relevancy
standard. In the Wiretapping Act, the Legislature
set out a relevancy standard for issuance of a
court order. Ibid. As a search warrant issues only
on a finding of probable cause, the Legislature
clearly did not intend to use "court order" as an
equivalent term. Against this legislative history,
the Defendants provide no convincing argument to
why the court should read the PMP statute to

App.22a

require a relevancy showing from a grand jury on
one hand but a probable cause showing from a law
enforcement officer on the other hand.
New Jersey case law supports finding the
PMP statute requires a relevancy showing from all
parties. New Jersey law recognizes that
individuals retain a privacy interest in some types
of information disclosed to third parties. A grand
jury acting pursuant to a subpoena may obtain
bank records and ISP subscriber information. The
information sought must be " relevant to the
subject matter of the investigation." State v.
McAllister, 184 N.J. 17, 36 (2005); State v. Reid,
194 N.J. 386, 403 (2008). Further, the Court has
affirmed the Legislature's choice of a relevancy
standard to protect an individual' s privacy right
in telephone billing records. State v. Lunsford, 226
N.J. 129, 152 (2016).
While this court recognizes that PMP
records disclose personal medical information, it
considers the amount of information disclosed to be
limited. The court agrees with the State's
argument:
The fact that a person
received a prescription for
Oxycodone informs only a
single conclusion: that the
person either suffers, or at one
time suffered from pain. The
fact that a person received a
prescription
for
Xanax
(Alprazolam)
similarly
reveals little: the person
suffers or at one time may

App.23a

have suffered from anxiety
disorders or panic disorders.
The root
cause
the
underlying medical condition is absent from the PMP data.
PMP records are limited to
the
person's
access
to
controlled
dangerous
substances.
[State' s Brief, 17.]
The amount of personal
information
revealed by the disclosure of PMP records is no
greater than the amount of personal information
revealed by the disclosure of bank records , ISP
subscriber information, or telephone billing
records. The same degree of protection should be
afforded to privacy interest in prescription
monitoring information held in the PMP
database. Therefore, a grand jury subpoena
issued pursuant to a relevancy standard is
sufficient to protect those privacy interests.
Lastly, the defendants have provided no
facts to suggest the possibility that law
enforcement has abused access to PMP records.
In Lunsford, the Court acknowledged the long
recognized possibility of abuse in the particular
context of telephone records. 226 N.J. at 154. The
Court established a relevancy standard for
release of such records but also required that
requests for access be made by court order. There
is no basis for this court to find the context of PMP
records comparable. A grand jury subpoena
provides sufficient protection of privacy interests
in PMP records.

App.24a

II.

The Subpoenas Duces Tecum

The Defendants argue that a grand jury
subpoena issued for PMP records is valid only if
a grand jury is actively investigation the matter
for which the subpoena is issued. The
Defendants assert that the phrase "a properly
convened grand jury" in the PMP statute
requires not only that the grand jury be seated
but that it is actually investigating the matter
for which subpoenas are issued. Further, the
Defendants argue that the grand jury subpoenas
issued in the underlying case were invalid because
their delivery to the PMP Administrator without
notice to the Defendants did not provide an
opportunity to contest the request and, therefore,
ensure sufficient oversight of the State's
requests. On the other hand, the State
represented to the court that the State was
investigating Dr. Beecher for potentially
oversubscribing opioids and was doing so based
on information provided to the State by a
confidential informant. In additi on, the State
represented that a grand jury was convened each
day the subpoenas were returnable.
The PMP statute provides that PMP
records may be provided to a "properly convened
grand jury pursuant to a subpoena properly
issued for the records." N.J.S.A. 45:l-46i(8). This
provision should be read in conjunction with State
v. Hilltop Private Nursing Home, Inc., 177 N.J.
Super. 377 (App. Div. 1981). In that case, the court
found a grand jury does not need to be actively
investigating a case when a subpoena is issued.
Id. at 396. Further, where multiple subpoenas are

App.25a

issued, the grand jury sitting on each return date
does not need to be one impaneled specifically for
the ongoing investigation. Id. at 385-386. Lastly, a
prosecutor may accept subpoenaed material on
their return in place of a grand jury. Id. at 393.
The court concluded that a subpoena duces tecum
is valid provided it is marked returnable to a grand
jury room and the subpoenaed witnesses is given
the opportunity to go before a grand jury on the
return date. Id. at 396-397.
In Hilltop, the State issued four grand jury
subpoenas between November 28, 1978 and June
20, 1979. During this time, the State made no
actual grand jury presentation. The actual
presentation to the grand jury did not begin until
July 31, 1979. Id. at 386. The trial court
suppressed the subpoenaed evidence as no grand
jury had authorized issuance of the subpoenas. The
appellate court reversed the trial court's decision,
finding that a grand jury subpoena is valid even if
a grand jury does not authorize it. The court
concluded that the validity of a subpoena turns on
the opportunity to appear rather than when the
grand jury came into existence. Id. at 396. "The
thin line between a valid grand jury subpoena
and an invalid office subpoena is crossed when
the prosecutor does not provide the subpoenaed
witness with an opportunity to go before the
grand jury on the return date." Id. at 395. (original
emphasis).
The provision in the PMP statute that
provides access to PMP records by subpoena adds
no requirements to those set out in Hilltop . First,
the provision states that the subpoena must be "
properly issued." N.J.S.A. 45: l-46i(8). As set forth

App.26a

in Hilltop, a subpoena is "properly issued" so long
as it is marked returnable to a grand jury room
and the subpoenaed witnesses is given the
opportunity to go before a grand jury on the
return date. Hilltop, supra, 177 N.J. Super. at
396-397. The Statute's phrase "properly issued"
does not require anything more.
Second, the provision requires that the
Division provide the subpoenaed records to a
"properly convened grand jury." Id. As set forth in
Hilltop, the prosecutor may accept subpoenaed
material in place of a grand jury. If the Legislature
intended to limit the State from accepting
subpoenaed material in place of a grand jury
scheduled to sit on the return date, it would have
said so. The Statute's language provides no signal
that the Legislature intended to depart from a
thirty­ six-year-old case precedent that permits a
prosecutor to accept subpoenaed material returned
to a grand jury.
Each of the sixteen Grand Jury subpoenas
issued in this case satisfy the two requirements
set out by the court in Hilltop. First, the
subpoenas were marked returnable to a grand
jury room. Each subpoena commanded the PMP
Administrator to appear at the State Grand Jury
on the 4th Floor, West Wing of the Richard J.
Hughes Justice Complex on a specified date and
at a specified tim e. Second, each subpoena gave
the PMP Administrator the opportunity to go
before a grand jury. In State v. Stelzner, the
court found that this requirement is satisfied
where "the face of each subpoena offered the
opportunity to appear before the grand jury." 257
N.J. Super. 219, 236 (App. Div. 1992). As each

App.27a

subpoena ordered the Administrator to appear
with the requested records, each subpoena on its
face established the opportunity to appear.
Lastly, the court is satisfied that the
Division of Criminal Justice was not required to
provide notice to the Defendants when it
served the grand jury subpoenas on the PMP
Administrator. In State v. McAllister, the Court
found that the prosecutor is not required to provide
notice to an individual under investigation when
it issues a grand jury subpoena to a banking
institution for that individual's banking records.
184 N.J. 17, 42. The Court acknowledged that
banks may not have the same incentives or
substantive arguments to challenge the subpoenas.
However, the Court recognized that banks do have
the opportunity to oppose. Further, New Jersey law
does not require notice be given to the target of
the investigation.
The scenario before this court is comparable.
The court is satisfied that the Division of
Consumer Affairs had the ability to object to the
subpoenas served by detectives for PMP records.
The Division of Criminal Justice did not need to
provide notice to the Defendants when it served
any of the subpoena s. Each subpoena was valid.
The procedure by which they were served was
valid. Therefore, the court does not suppress the
evidence obtained pursuant to their issuance.
Conclusion
For the reasons set forth above, this
court is satisfied that the PMP statute
provides sufficient constitutional protection of

App.28a

individual's privacy rights in prescription
monitoring information held by the Division of
Consumer Affairs pursuant to N.J.S.A. 45:1-45,
et Further, the court is satisfied that each
subpoena issued to the PMP Administrator was
valid. Therefore, having reviewed the papers and
having heard oral argument, this court denies
Defendant's Motion to Suppress.

